No.
In the Supreme Court of the United States

JUAN E. SEARY-COLON, A/K/A RICKY DIABLO,
PETITIONER,
v.
UNITED STATES,
RESPONDENT.

PROOF OF SERVICE OF PETITION FOR WRIT OF CERTIORARI AND
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
I, Johnny Rivera-González, do hereby duly swear, declare, and certify that
on this date, June 1, 2021, as required by the Supreme Court Rule 29, I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelop containing the above documents in the United
States mail properly addressed to each of them and with first class priority postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3
calendar days.

1

The names and addresses of those served are as follows:
(1) Solicitor General of the United States, Room 5616, Department of
Justice, 950 Pennsylvania Avenue, N.W, Washington, D.C. 20530-0001;
(2) Mr. Stephen Muldrow, Esq., U.S. Attorney, U.S. Department of Justice,
Criminal Division, at Torre Chardón, Suite 1201, 350 Carlos Chardón
Street, San Juan, Puerto Rico 00918;
(3) Petitioner Juan E. Seary-Colon, Inmate Registration Number 39334-069,
at U. S. P. Coleman I, U. S. Penitentiary, P. O. Box 1033, Coleman, FL
33521.
I declare under penalty of perjury that the foregoing is true and correct.
RESPECTFULLY SUBMITTED.
In San Juan, Puerto Rico, this 1st day of June, 2021.

/s/ Johnny Rivera-González
Johnny Rivera-González, Esq.
U.S.C.A. - First Cir. Bar No. 43285
U.S.D.C. - P.R. Bar No. 207710
P.O. Box 192397
San Juan, P.R. 00919-2397
Tel. No. (787) 470-4986
E-Mail: goodjrg@gmail.com

2

